Audit
Report
  GENERAL OFFICER QUARTERS AT KANOEHE BAY, HAWAII;
  CAMP PENDLETON, CALIFORNIA; AND ALBANY, GEORGIA


Report No. D-2002-020                 December 5, 2001



             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

CAR                   Contract Administration Rate
GOQ                   General Officer Quarters
M&R                   Maintenance and Repair
MARFORPAC             Marine Forces Pacific
MCO                   Marine Corps Order
NAVFAC                Naval Facilities Engineering Command
SECNAVINST            Secretary of the Navy Instruction
                       Office of the Inspector General, DoD
Report No. D-2002-020                                                December 5, 2001
  (Project No. D1999CG-0085.002)

        General Officer Quarters at Kaneohe Bay, Hawaii; Camp
              Pendleton, California; and Albany, Georgia
                                   Executive Summary
Introduction. This report is one in a series of reports about general and flag officer
quarters maintenance and repair costs. The Military Construction Appropriations
Act 2000, section 128, requires that general officer quarters (GOQ) maintenance and
repair costs not exceed $25,000 annually without prior congressional notification. We
reviewed five GOQs with the total reported maintenance and repair costs of $136,273, that
represented more than a quarter of the total Marine Corps GOQ maintenance and repair
costs for FY 2000.

Objectives. Our overall audit objective was to determine the adequacy of management
controls over the review and authorization process of GOQ costs. Specifically, this report
focuses on annual operations and maintenance costs for the GOQs located at Marine Corps
Base Hawaii, Kaneohe Bay, Hawaii (Kaneohe Bay); Marine Corps Base Camp Pendleton,
California (Camp Pendleton); and Marine Corps Logistics Base, Albany, Georgia (Albany).
See Appendix A for a discussion of the audit scope and methodology.

Results. Marine Corps family housing offices at Kaneohe Bay and Camp Pendleton
omitted or improperly classified FY 2000 maintenance and repair costs, and exceeded the
$25,000 statutory limitation on annual GOQ maintenance and repair costs for three
GOQs. Maintenance and repair costs exceeded the statutory limitation by $1,134 and
$2,474 for two GOQs at Kaneohe Bay; and $8,698 for one GOQ at Camp Pendleton. As
a result, the Marine Corps accounting for FY 2000 GOQ costs was understated by
$13,356, and potential Antideficiency Act violations may have occurred at Kaneohe Bay
and Camp Pendleton (finding A). Marine Corps family housing officials at Kaneohe Bay
and Albany incurred questionable GOQ operations and maintenance costs totaling
$53,081 for FYs 1998 through 2001. As a result, the Marine Corps family housing
offices at Kaneohe Bay and Albany lost opportunities to execute higher priority
maintenance and repair projects (finding B).

Summary of Recommendations. We recommend that the Assistant Secretary of the Navy
(Financial Management and Comptroller) initiate actions to investigate potential
Antideficiency Act violations, revise FY 2000 GOQ cost reports, issue a policy
memorandum addressing contract administration charges, and direct the Naval Facilities
Engineering Command and Marine Corps Deputy Commandant for Installations and
Logistics to reflect the new Navy housing policy guidance in revised Navy and Marine
Corps family housing manuals. Further, we recommend that Marine Corps Deputy
Commandant for Installations and Logistics revise the Marine Corps housing management
manual to include guidance on cost classifications consistent with the Navy family housing
manual, and direct the Marine Forces Pacific to periodically evaluate the effectiveness of
GOQ housing office operations. Finally, we recommend that the Commanding General at
Kaneohe Bay and the Commanding Officer at Albany require periodic evaluations of the
effectiveness of GOQ housing management controls, and identify and prioritize GOQ
maintenance and repair requirements.

Management Comments. The Navy generally concurred with the intent of the
recommendations. The Navy stated that formal and preliminary investigations into
potential Antideficiency Act violations are in progress at Camp Pendleton and Kaneohe
Bay, respectively. Accounting errors identified in the audit report will be corrected, and
congressional reports will be updated as necessary. The Navy stated that they have
completed a draft revision to Secretary of the Navy Instruction 11101.73A on general and
flag officer quarters, and will recommend those cognizant officials to incorporate
guidance on contract administration charges in that document. The Navy further stated
that both the Navy family housing manual and Marine Corps housing management
manual will be updated when revised Departmental policy guidance is issued. The Navy
also stated that Navy guidance was not applicable to Marine Corps housing, and that the
Marine Corps is in the process of updating its housing management manual. Marine
Forces Pacific has already provided extensive assistance to include a new database for
collecting GOQ costs. Further, projected expenses were reviewed in accordance with
Marine Corps housing manual at Kaneohe Bay, and management controls were in place
at Albany. Finally, the draft revision to Secretary of the Navy Instruction 11101.73A
includes a requirement for establishing a long-range maintenance plan. A discussion of
management comments is in the Finding section of the report, and the complete text is in
the Management Comments section.

Audit Response. The Navy comments are partially responsive. As a result of
management comments, we modified the wording of some recommendations to request
that the Navy and Marine Corps revise their family housing manuals to incorporate
changes in the updated Secretary of the Navy Instruction 11101.73A on general and flag
officer quarters, to periodically evaluate the effectiveness of GOQ housing management
controls, and to identify and prioritize the maintenance and repair requirements for the
GOQs at Kaneohe Bay and Albany. We request that the Navy provide comments on the
final report by February 4, 2002.




                                            ii
Table of Contents

Executive Summary                                                              i


Introduction
     Background                                                               1
     Guidance on General Officer Quarters Housing Management                  1
     Objectives                                                               1

Findings
     A. Accuracy of General Officer Quarters Annual Maintenance and Repair
          Costs                                                               3
     B. Review and Authorization of General Officer Quarters Operations and
          Maintenance Costs                                                    9

Appendixes
     A. Audit Process
          Scope                                                               14
          Methodology                                                         14
          Prior Coverage                                                      15
     B. Report Distribution                                                   16

Management Comments
     Department of the Navy                                                   19
Background
     We reviewed five general officer quarters (GOQs) with the total reported
     maintenance and repair (M&R) costs of $136,273, that represented more than a
     quarter of the total Marine Corps GOQ M&R costs for FY 2000. The Office of
     the Deputy Commandant for Installations and Logistics is responsible for
     administering the Marine Corps family housing program, to include providing
     policy and guidance. The Marine Corps family housing offices are responsible
     for managing GOQ operations. The Marine Forces Pacific (MARFORPAC) is
     the major command responsible for Marine Corps Base Hawaii, Kaneohe Bay,
     Hawaii, (Kaneohe Bay); and Marine Corps Base Camp Pendleton, California,
     (Camp Pendleton). The Marine Corps Logistics Base, Albany, Georgia,
     (Albany) is a subordinate command of the Marine Corps Materiel Command.



Guidance on GOQ Housing Management
     DoD 7000.14-R. “Financial Management Regulation,” volume 6, “Reporting
     Policy and Procedures,” provides guidance for establishing and maintaining
     uniform budget program accounts for the accumulation of obligations incurred for
     the family housing operations and maintenance program.

     Navy Housing Guidance. Secretary of the Navy Instruction (SECNAVINST)
     11101.73A, “Approval Authority for Maintenance and Repair of Flag and General
     Officers’ Quarters,” October 27, 1989, provides guidance concerning approval
     authority for maintenance, repair, and restoration of public quarters assigned to
     flag and general officers.

             Naval Facilities Engineering Command Regulation P-930. Naval
     Facilities Engineering Command (NAVFAC) Regulation P-930, “Navy Family
     Housing Manual,” July 1999, provides guidance on the organization,
     management, programming, acquisition, and staffing of Navy family housing.
     The regulation contains specific guidance on the classification of furnishings,
     maintenance and repair, and improvements as they relate to Navy family housing.

            Marine Corps Order P11000.22. Marine Corps Order (MCO)
     P11000.22, “Marine Corps Housing Management Manual,” February 14, 1991,
     provides guidance for the acquisition, use, and disposition of Marine Corps
     housing. The manual also provides the policy for Marine Corps housing
     operations and maintenance.



Objectives
     The overall audit objective was to determine the adequacy of management
     controls over the review and authorization process of GOQ costs. This report
     focuses on annual operations and maintenance costs for specific GOQs located at

                                         1
Kaneohe Bay, Camp Pendleton, and Albany. See Appendix A for a discussion of
the audit scope and methodology, and prior audit coverage.




                                 2
           A. Accuracy of General Officer Quarters
              Annual Maintenance and Repair
              Costs
           Marine Corps family housing offices at Kaneohe Bay and Camp Pendleton
           omitted or improperly classified FY 2000 M&R costs, and exceeded the
           $25,000 statutory limitation on annual M&R costs for three GOQs. This
           condition occurred because the Marine Corps had not established adequate
           management controls over housing office operations. As a result, the
           Marine Corps accounting of FY 2000 GOQ costs was understated by at
           least $13,356, and potential Antideficiency Act violations may have
           occurred at Kaneohe Bay and Camp Pendleton.



Public Law
    Section 1341, Title 31, United States Code. “Limitations on Expending and
    Obligating Amounts,” prescribes that an officer or employee of the U.S.
    Government not make or authorize an expenditure or obligation exceeding an
    amount available in an appropriation or fund for the expenditure or obligation.

    Military Construction Appropriations Act 2000, Section 128. The Act
    specifically requires that M&R costs not exceed $25,000 per GOQ annually
    without prior congressional notification.



FY 2000 GOQ Maintenance and Repair Costs
    Marine Corps family housing offices at Kaneohe Bay and Camp Pendleton
    omitted or improperly classified FY 2000 M&R costs, and exceeded the $25,000
    statutory limitation on annual M&R costs for three GOQs.

    Cost Omissions. Kaneohe Bay and Camp Pendleton omitted at least $11,375 of
    contract administration services, grounds care, and other costs.

            Contract Administration Services Costs. Kaneohe Bay housing
    officials omitted at least $1,272 and $1,150 of contract administration rate (CAR)
    costs for GOQ 511 and 515, respectively. These omitted costs were associated
    with FY 2000 maintenance and repairs that were performed under a change of
    occupancy contract. The family housing office paid CAR fees to the regional
    contracting office for administering contracts such as regular M&R, refuse
    collection, tree trimming, change of occupancy, and custodial services.
    According to Navy Comptroller officials, CAR fees should have been charged to
    the specific unit(s) when contracted work was performed exclusively on that unit.
    The family housing office only charged a flat fee of $223 for each GOQ by using
    a “prorated” method for assessing CAR costs. Family housing officials stated that

                                         3
they acted in a reasonable manner in calculating CAR costs due to the lack of
clear guidance. However, housing officials had previously charged CAR costs to
GOQ 511 correctly for the repair of planters and the installation of shutters in
FYs 1998 and 1999.

By contrast, the housing office at Albany charged CAR costs to the GOQ for
work that was exclusively performed on that unit. Recently, the Office of the
Assistant Secretary of the Navy for Installations and Environment has completed
a draft revision to SECNAVINST 11101.73A on general and flag officer quarters.
The instruction was substantially revised to incorporate statutory changes and
reemphasize the policies and approval authorities for the operation, maintenance,
repair, and improvement of general and flag officer quarters. The Navy should
incorporate guidance on assessing CAR costs in that document.

        Grounds Care Costs. Camp Pendleton omitted at least $8,748 of
grounds care costs for GOQ 24154 in FY 2000. During our review of GOQs at
Kaneohe Bay, MARFORPAC housing officials questioned the accuracy of
grounds care costs recorded for GOQ 24154 at Camp Pendleton, and requested
that we review the matter. Camp Pendleton charged a total of $4,362 in grounds
care for FY 2000. However, we identified at least $13,110 in grounds care costs
incurred in FY 2000.

Camp Pendleton housing officials stated that the difference in grounds care costs
was attributed to adjustments in the GOQ boundary lines. According to
headquarters housing officials, any adjustments to GOQ boundary lines would
have required headquarters approval. No such approval had been granted.

        Other Omitted Costs. Kaneohe Bay housing officials omitted $205 of
regular service and material costs, which should have been charged to GOQ 511.

Cost Classifications. Housing officials at Kaneohe Bay did not properly classify
GOQ costs totaling $1,981. Ceiling fans and window air conditioning units at
GOQ 515, valued at $1,567, were improperly charged to the furnishings account,
rather than the M&R account. In another instance, at GOQ 511, a window air
conditioning unit, valued at $414, was incorrectly charged to the furnishings
account. Marine Corps housing management policies do not specifically define
the classification category of air conditioning units. However, according to Navy
Comptroller personnel, Marine Corps housing officials should ensure compliance
with NAVFAC Regulation P-930, particularly when encountering an issue that is
not specifically addressed by Marine Corps guidance. NAVFAC P-930 clearly
states that installed equipment, including air conditioning units (window and
central), are not considered a furnishing, but part of the housing unit.
Table 1 shows the amount of understated M&R costs and the GOQs that exceeded
the statutory limitation, after our adjustments, without prior notification to
Congress.




                                    4
          Table 1. FY 2000 Understated M&R Costs and M&R in Excess of
                              Statutory Limitation
                                         Audit                                  M&R in
                          Reported     Identified   Understated   Statutory    Excess of
     Installation/GOQ      M&R           M&R          M&R         Limitation   Limitation
     Kaneohe Bay
      511           $24,243            $26,134      $ 1,891       $25,000      $ 1,134
      515            24,757             27,474        2,717        25,000        2,474
     Camp Pendleton
      24154          24,950             33,698        8,748        25,000        8,698
      Total                                         $13,356                    $12,306




Adequacy of Management Controls
    The Marine Corps had not established adequate management controls over
    housing office operations. Specifically, MARFORPAC received GOQ cost data
    that lacked sufficient detail to identify potential errors, and periodic reviews were
    not performed at the installation level.

    GOQ Cost Data Reviews. MARFORPAC reviewed quarterly GOQ cost reports
    from their subordinate commands that only included summary cost data. Those
    summary cost reports did not include sufficient detail to enable MARFORPAC to
    identify potential cost reporting errors. Requiring detailed costs reports to show
    line item costs for each of the GOQ operation and maintenance accounts would
    enable MARFORPAC housing officials to identify potential improper cost
    classifications and noncompliance issues. MARFORPAC should require detailed
    cost reports in order to strengthen its ability to provide more effective
    management oversight. However, requiring detailed cost data alone would not
    completely ensure GOQ cost recording accuracy.
    Periodic Reviews of Operations. Marine Corps housing management periodic
    reviews of housing office operations were not conducted as a part of standard
    operating procedures. Without the periodic reviews of management control
    procedures at the installation level, the MARFORPAC ability to ensure the
    accuracy of GOQ cost recording and compliance with applicable laws and
    regulations was limited. For example, MARFORPAC did not know whether
    M&R labor charges or CAR fees were completely captured. Housing offices
    would be more apt to verify accuracy and compliance if MARFORPAC held
    those offices accountable by periodically reviewing the effectiveness of
    management controls and housing office performance in managing GOQs.




                                          5
Impact of GOQ Cost Recording Errors
    The Marine Corps accounting for GOQ costs at Kaneohe Bay and Camp
    Pendleton were unreliable. Congress requires the Under Secretary of Defense
    (Comptroller) to annually report all M&R costs for each individual GOQ to the
    appropriation committees. Because Marine Corps housing officials omitted or
    improperly charged M&R costs, the Marine Corps reports on GOQ costs for those
    installations understated M&R costs by at least $13,356.

    The failure to comply with the FY 2000, $25,000 statutory limitation on annual
    M&R costs for the two GOQs at Kaneohe Bay and one GOQ at Camp Pendleton
    may have resulted in violations of the Antideficiency Act (31 United States Code
    1341). Accordingly, the Assistant Secretary of the Navy for Financial
    Management and Comptroller, should investigate the FY 2000 M&R costs for the
    three quarters at Kaneohe Bay and Camp Pendleton for potential Antideficiency
    Act violations, and fix responsibility. If any violations occurred, the Assistant
    Secretary should comply with the reporting requirements in DoD Directive
    7200.1, “Administrative Control of Appropriations,” May 4, 1995, and the DoD
    Financial Management Regulation (DoD 7000.14R), volume 14, “Administrative
    Control of Funds and Antideficiency Act Violations,” March 2001. The Assistant
    Secretary should also verify that the GOQ costs have been corrected for FY 2000,
    and the revised costs are reported to the Congress.



Management Actions
    In response to increased congressional scrutiny and the preliminary results of our
    review, the Commander of MARFORPAC established a new system for tracking
    and reporting GOQ costs. As of April 6, 2001, MARFORPAC directed
    subordinate commands to use the GOQ Expense Tracking and Reporting System
    for managing GOQs. This new system should help housing officials improve
    oversight of GOQ management, enhance accuracy, and minimize GOQ cost
    omissions. The system generates GOQ quarterly cost reports that include detailed
    line item data necessary to enable MARFORPAC to provide more effective
    oversight.



Recommendations, Management Comments, and
Audit Response
    Revised Recommendation. As a result of management comments, we modified
    the wording of Recommendations A.1.d. and A.2.a. to direct that the Navy and
    Marine Corps to revise their family housing manuals to incorporate changes in the
    updated SECNAVINST 11101.73A on general and flag officer quarters, and the
    Marine Corps to include guidance on cost classifications in Marine Corps Order
    P11000.22.


                                        6
A.1. We recommend that the Assistant Secretary of the Navy (Financial
Management and Comptroller):
        a. Initiate actions to investigate potential Antideficiency Act
violations at the following general officer quarters:
               (1) 511 and 515 at Marine Corps Base Hawaii, Kaneohe Bay,
Hawaii, and
               (2) 24154 at Marine Corps Base Camp Pendleton, California.
Management Comments. The Navy concurred and stated that a formal
investigation into a potential Antideficiency Act violation at Camp Pendleton,
California, is in progress. The Commanding General, Marine Corps Base,
Hawaii, has directed that a preliminary review for a potential Antideficiency Act
violation be conducted.
        b. Verify that general officer quarters costs have been corrected for
FY 2000, and update congressional reporting of general officer quarters costs
to reflect accounting error corrections.
Management Comments. The Navy concurred and stated that they will make
appropriate accounting corrections, and update congressional reporting if the
investigations uncover accounting errors.
      c. Issue a policy memorandum addressing contract administration
charges for work performed exclusively for general officer quarters.
Management Comments. The Navy concurred in principle and stated that the
Office of the Assistant Secretary of the Navy for Installations and Environment
has completed a draft revision to SECNAVINST 11101.73A on general and flag
officer quarters. The Assistant Secretary of the Navy for Financial Management
and Comptroller will recommend that the Office of the Assistant Secretary of the
Navy for Installations and Environment incorporate appropriate guidance in that
document.
Audit Response. The Navy comments are partially responsive. The Navy did
not indicate an approximate date when the revised instruction would be
completed. We request that the Navy provide an estimated completion date in its
comments on the final report.
      d. Direct the Naval Facilities Engineering Command and Marine
Corps Deputy Commandant for Installations and Logistics to revise the
Naval Facilities Engineering Command P-930 and Marine Corps Order
P11000.22 to reflect new policy guidance.
Management Comments. The Navy concurred in principle and stated that the
Navy Family Housing Manual (NAVFAC P-930) is under the jurisdiction of the
Naval Facilities Engineering Command. When revised Departmental policy
guidance (SECNAVINST 11101.73A) is issued, the Naval Facilities Engineering
Command and Headquarters Marine Corps will update P-930 and
MCO P11000.22.


                                     7
Audit Response. The Navy comments are partially responsive. We revised our
recommendation to accurately reflect the responsible activities for updating Navy
and Marine Corps family housing manuals. The Navy did not indicate an
approximate completion date for the revised SECNAVINST 11101.73A. We
request that the Navy provide an estimated completion date in its comments on
the final report.

        A.2. We recommend that Marine Corps Deputy Commandant for
Installations and Logistics:

        a. Revise Marine Corps Order P11000.22 to include guidance on cost
classifications consistent with NAVFAC P-930.

Management Comments. The Navy nonconcurred and stated that the Naval
Facilities Engineering Command P-930 guidance is applicable to Navy housing
and that Marine Corps Order P11000.22 is the implementing guidance for the
Marine Corps. The Marine Corps is in the process of updating Order P11000.22,
to include addressing cost classifications.

Audit Response. The Navy comments are partially responsive. We revised our
recommendation to accurately reflect the responsibility of the Marine Corps for
implementing guidance on cost classifications. We request that the Navy provide
an estimated completion date in its comments on the final report.

       b. Direct the Commander, Marine Forces Pacific, to periodically
evaluate the effectiveness of general officer quarters housing office
operations to ensure compliance with applicable directives.

Management Comments. The Navy concurred and stated that Marine Forces
Pacific, has already provided extensive assistance to include a new database for
collecting GOQ costs. Periodic site visits were also made in FYs 2000 and 2001.




                                    8
           B. Review and Authorization of General
              Officer Quarters Operations and
              Maintenance Costs
           Marine Corps family housing officials at Kaneohe Bay and Albany
           incurred questionable GOQ operations and maintenance costs totaling
           $53,081 for FYs 1998 through 2001. This condition occurred because
           housing officials did not consistently review and authorize GOQ costs in a
           prudent manner, as required by Marine Corps guidance. As a result, the
           Marine Corps family housing offices at Kaneohe Bay and Albany lost
           opportunities to execute higher priority M&R projects.



GOQ Operations and Maintenance Costs
    Marine Corps family housing officials at Kaneohe Bay and Albany spent $53,081
    during FYs 1998 through 2001 for items and projects that did not comply with
    housing guidance or were low priority in view of other higher priority projects
    identified by the housing officials. Table 2 shows the questionable GOQ costs at
    Kaneohe Bay and Albany.

          Table 2. Questionable GOQ Costs for Kaneohe Bay and Albany

       Installation /GOQ       Noncompliant        Low Priority          Total
     Kaneohe Bay
      511                           $9,314            $10,349           $19,663
      515                           24,943                               24,943
     Albany
      A                                                 4,244             4,244
      B                                                 4,231             4,231
        Total                      $34,257            $18,824           $53,081

    Noncompliant Costs. Housing officials reviewed and approved at least $34,257
    for costs that were not consistent with Marine Corps guidance. The specific
    noncompliant costs included interior window shutters, a leather sofa, and tile
    flooring.

             Interior Window Shutters. Interior window shutters charged to the
    furnishings account valued at $28,736, were installed in GOQs at Kaneohe Bay.
    According to MCO P11000.22, draperies and sheer curtains may be provided for
    the official entertainment areas of the GOQs. The guidance also states that
    reasonable window treatment is permitted for all areas of the GOQs designated
    as special command positions. The two GOQs at Kaneohe Bay were not
    designated as special command positions. Further, in Marine Corps headquarters
    letter, “Refurbishment of General Officer Quarters (GOQs),”


                                        9
dated March 14, 1994, family rooms and enclosed porches, which are referred to
in Hawaii as lanais, are not part of the public entertainment area. Therefore, the
Government should not have paid the entire cost of shutters.

        Leather Sofa. At GOQ 515, Kaneohe Bay, a three-piece leather sofa,
valued at $2,344, was purchased in FY 2000. According to a housing office
document, the spouse of the occupant requested to pick out a sofa for the lanai
area, and have the housing office purchase it as furnishings. The lanai was used
as a family room as stated by the occupant’s spouse during the GOQ tour.
MCO P11000.22 states that furniture procurement is limited to supplementary
furniture for the public entertainment areas only, and is not intended to replace
personal furnishings. Public entertainment areas include the entrance foyer, living
rooms, dining rooms, and the stairways and hallways interconnecting these areas.
Because Marine Corps housing guidance does not consider the lanai area to be
part of the public entertainment area, the sofa purchase should have been
disapproved.

        Tile Flooring. Black-and-white tile was installed, at a cost of $3,177, in
four bedrooms at the request of the occupant of GOQ 515, Kaneohe Bay.
According to MCO P11000.22, the flooring color should be a neutral shade to
ensure compatibility with any present and future occupant’s furnishings. Service
housing regulations prohibit the occupant to request procurement of replacement
furniture, carpets, tiles, wallcoverings, or other work on the basis of compatibility
with personal furnishings or personal preferences. During the GOQ tour, a
housing official stated that the occupant’s spouse insisted on the use of
black-and-white pattern of tiles, even though he did not agree with the color
selection.

Low Priority Costs. Housing officials reviewed and approved at least $18,824
for costs that they considered lower priority when compared to other major repair
needs. The low priority costs included security systems, planters, and fencing.

        Security Systems. The housing officials at Albany spent a total of
$19,000 on security systems for GOQs A and B with regular operation and
maintenance funds in FY 1999. Housing officials stated that the installation of
the security systems was legal, but not required. Additionally, they questioned
the need for the systems because the installation had tight security. We contacted
the Office of the Provost Marshal at Albany concerning the security systems.
Provost Marshal officials stated that they did not direct the installation of the
security systems. Because the systems were installed, the family housing office
will incur required annual maintenance fees of $8,475 for FYs 2000 and 2001,
and additional $21,435 for FYs 2002 through 2005.

       Planters. Three planters were repaired in FY 1998, at GOQ 511,
Kaneohe Bay, at a cost of $7,949. The planters are located at the entrance to the
quarters and in the lawn terrace behind the quarters. They function solely to
enhance the external appearance of the quarters. The planter repairs could have
been deferred until other higher priority items were repaired or replaced.

        Fencing. At GOQ 511, Kaneohe Bay, a backyard fence approximately 12
feet long was installed, at a cost of $2,400. The fence was installed in FY 1999,

                                     10
     at the request of the occupant, for the purpose of enclosing a section of the lawn
     terrace. According to housing officials, the fence was installed as a measure to
     close off the enclosed wind break area, not to structurally support the wind break.
     Therefore, the fence functions as a gate leading to the remainder of the backyard,
     and serves no other apparent purpose such as providing privacy or security.


Review and Authorization of GOQ Costs
     Housing officials did not consistently review and authorize GOQ costs in a
     prudent manner, as required by Marine Corps guidance. Specifically, they did not
     review and authorize costs consistent with the repair priorities identified as
     necessary to improve existing conditions.
     Compliance Reviews. Housing officials at Kaneohe Bay did not ensure that
     GOQ costs complied with Marine Corps guidance. As previously discussed, costs
     for interior window shutters, a leather sofa, and tile flooring were not consistent
     with Marine Corp guidance. The housing officials should have concluded that the
     costs were unauthorized.

     Maintenance and Repair Priorities. Housing officials at both installations did
     not review and authorize costs consistent with the repair priorities of the GOQs.
     Marine Corps policy requires economical and practical management using the
     prudent landlord concept.

             Kaneohe Bay. The repair priorities of GOQs 511 and 515 at Kaneohe
     Bay were documented by the housing officials in revitalization projects, valued at
     approximately $191,000 and $330,000, respectively. The planned revitalization
     projects included replacement of outdated electrical and plumbing systems, new
     windows, new kitchen, wall and floor finishes, bathroom upgrades, and exterior
     items.
             Albany. Prior to installing the security systems, housing officials
     proposed renovations to the electrical and plumbing systems in GOQ A, which
     was built in 1955. However, the occupant objected to the proposed plan, because
     of the costs. Housing officials decided to defer the utility renovation, however,
     the 6-year, long-range maintenance plan did not reflect any future utility projects
     to upgrade the electrical and plumbing systems.


Impact of Questionable Costs
     The Marine Corps family housing offices at Kaneohe Bay and Albany lost
     opportunities to improve existing conditions. If housing officials had consistently
     reviewed and authorized GOQ costs in a prudent manner, resources could have
     been better managed and applied to urgent M&R needs.




                                         11
Other Matters of Interest
     Marine Corps housing personnel at Kaneohe Bay and Albany omitted $1,039 and
     $2,505, respectively, in operations costs from credit card transactions during FY
     2000. Since a majority of the omitted costs would have been charged to the
     furnishings account, which has no statutory limitation, there was no breach of any
     regulatory or statutory ceiling requirements. The only impact was that total
     operations costs were understated by $3,544. Table 3 shows the understated
     operations costs for the GOQs reviewed.

                    Table 3. FY 2000 Understated Operations Costs

                                    Reported        Audit Identified    Understated
          Installation/GOQ         Operations         Operations        Operations
      Kaneohe Bay: 511               $6,717             $7,756             $1,039
      Albany: A                      12,882             15,387             $2,505
       Total                                                               $3,544



Recommendations, Management Comments, and
Audit Response
     Revised Recommendations. As a result of management comments, we revised
     Recommendations B.1. and B.2. to clarify our intention that periodic evaluations
     of the effectiveness of general officer quarters housing management controls be
     required, and to identify and prioritize the maintenance and repair requirements
     for the general officer quarters at Kaneohe Bay and Albany.

     B. We recommend that the Commanding General, Marine Corps Base
     Hawaii, Kaneohe Bay; and the Commanding Officer, Marine Corps Logistics
     Base, Albany:

           1. Require periodic evaluations of the effectiveness of general officer
     quarters housing management controls to ensure compliance with Marine
     Corps guidance.
     Management Comments. The Navy concurred and stated that at Marine Corps
     Base Hawaii, Kaneohe Bay, projected expenses were reviewed in accordance with
     Marine Corps Order P11000.22. At Marine Corps Logistics Base, Albany,
     internal management controls were in place to ensure compliance with applicable
     laws and regulations.

     Audit Response. The Navy comments are partially responsive. We disagree with
     the position that Marine Corps Base Hawaii, Kaneohe Bay, complied with Marine
     Corps Order P11000.22, and Marine Corps Logistics Base, Albany had adequate
     management controls. To prevent future noncompliant general officer quarters
     costs, the Commanding General, Marine Corps Base Hawaii, Kaneohe Bay; and

                                         12
the Commanding Officer, Marine Corps Logistics Base, Albany, need to
strengthen their general officer quarters housing management controls to ensure
compliance with Marine Corps guidance. We request that the Marine Corps
reconsider its position on the recommendation and provide comments on the final
report.

        2. Identify and prioritize the maintenance and repair requirements
for the general officer quarters at Kaneohe Bay and Albany.

Management Comments. The Navy concurred and stated that the draft revision
to SECNAVINST 11101.73A includes a requirement for establishing a
long-range maintenance plan. The Navy and Marine Corps will update their
housing manuals to implement the new guidance when it is approved by the
Secretary of the Navy.




                                   13
Appendix A. Audit Process

Scope
    Work Performed. We conducted the audit of management controls over the
    review and authorization process for GOQ costs, as a followup to our two
    previous audits, Report No. D-2001-027, “Navy Management Controls
    over General and Flag Officer Quarters,” December 26, 2000; and Report
    No. D-2000-071, “Maintenance and Repair of DoD General and Flag Officer
    Quarters,” January 27, 2000. We reviewed FYs 1999 and 2000 operations and
    maintenance costs for the two GOQs at Albany, and reviewed the same type of
    GOQ costs incurred in FYs 1998 through 2001 for the two GOQs at Kaneohe
    Bay.

    Limitations to Scope. At the request of MARFORPAC, we reviewed M&R
    costs for GOQ 24154 at Camp Pendleton, but limited our review to just grounds
    care costs in FY 2000.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Infrastructure high-risk areas.


Methodology
    Use of Computer-Processed Data. To achieve the audit objectives, we obtained
    and reviewed computer-processed data contained in the Standard Accounting
    Budgeting and Reporting System, Maximo, and other automated databases. Our
    review of system controls and the results of data tests showed discrepancies that
    cast doubt on the overall reliability of the data. However, when the data were
    reconciled with source documentation such as contract delivery orders, labor
    reports, vendors’ invoices, and other documents, we believe that the opinions,
    conclusions, and recommendations in this report are valid.

    Universe and Sample. During the FY 2000, the Marine Corps managed
    38 GOQs at 10 installations. To achieve the audit objectives, we judgmentally
    selected two installations from two different major commands. During the audit,
    we added Camp Pendleton at the request of MARFORPAC.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available upon request.

    Audit Type, Dates, and Standards. We performed the financial-related audit
    from November 2000 through July 2001, in accordance with generally accepted
    government auditing standards.




                                        14
Prior Coverage
    During the past 5 years, the Inspector General, DoD, the Naval Inspector General,
    the Naval Audit Service, and the Air Force Audit Agency issued reports that
    discussed general and flag officer quarters.

    Inspector General, DoD
    Inspector General, DoD, Audit Report No. D-2001-027, “Navy Management
    Controls over General and Flag Officer Quarters Costs,” December 26, 2000.

    Inspector General, DoD, Audit Report No. D-2000-071, “Maintenance and Repair
    of DoD General and Flag Officer Quarters,” January 27, 2000.

    Navy
    Naval Inspector General, Report of Investigation, “Senior Official Case 990441;
    Alleged Misuse of Operating Funds for Maintenance and Repair of Flag Officer
    Quarters,” October 27, 1999 (FOUO).

    Naval Audit Service, Audit Report NAVAUDSVC P-7520.1, “Management of
    Family Housing Operations and Maintenance Resources,” December 4, 1998
    (FOUO).

    Air Force
    Air Force Audit Agency, Audit Report 99052030, “United States Air Force
    Academy General Officer Quarters,” October 26, 1999.




                                       15
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
  Auditor General, Department of the Navy
  Inspector General of the Marine Corps
Marine Corps Deputy Commandant for Installations and Logistics
Commander, Marine Forces Pacific
  Commanding General, Marine Corps Base Camp Pendleton
  Commanding General, Marine Corps Base Hawaii
Commanding Officer, Marine Corps Logistics Base Albany

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          17
Department of the Navy
Comments




                     19
20
     Final Report
      Reference




     Revised




     Revised




21
Final Report
 Reference




Revised




Revised




               22
     Final Report
      Reference




     Page 1




     Page 1




     Revised




     Revised
     Page 4




     Revised




23
Final Report
 Reference




Revised
Page 9




Page 9




Page 9

Revised




               24
     Final Report
      Reference




     Revised
     Page 10




     Revised
     Page 10




     Page 10

     Revised
     Page 10




     Page 10




25
Final Report
 Reference




Revised
Page 10




               26
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold Stephenson
Wayne K. Million
Stephen T. Hampton
Wei K. Wu
Paul M. Gach
